No. 20-219
IN THE SUPREME COURT OF THE UNITED STATES

JANE CUMMINGS, PETITIONER
v.
PREMIER REHAB KELLER, P.L.L.C

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
BRIEF FOR THE UNITED STATES AS AMICUS CURIAE, via email and by first-class mail, postage
prepaid, this 25th day of May, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document 5946 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury
that the foregoing is true and correct. Executed on May 25, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

May 25, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

20-0219
CUMMINGS, JANE
PREMIER REHAB KELLER, P.L.L.C.

BRIAN SCOTT BRADLY
WATSON, CARAWAY, MIDKIFF AND
LUNINGHAM, LLP
306 W. 7TH STREET
SUITE 200
FORT WORTH, TX 76102
817-870-1717
SBRADLEY@WATSONCARAWAY.COM
ANDREW ROZYNSKI
EISENBERG & BAUM, LLP
24 UNION SQUARE EAST
4TH FLOOR
NEW YORK, NY 10003
212-353-8700
AROZYNNSKI@EANDBLAW.COM

